NO. 19-1180

In the
Supreme Court of the United States
ROBERT RADCLIFFE, ET AL.,

Petitioners,
v.
EXPERIAN INFORMATION SOLUTIONS, INC., ET AL.,

Respondents.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
REPLY BRIEF OF PETITIONERS

DANIEL WOLF
LAW OFFICE OF DANIEL WOLF
1220 N STREET, NW, UNIT PH2
WASHINGTON, DC 20005
CHARLES JUNTIKKA
CHARLES JUNTIKKA &
ASSOCIATES LLP
30 VESEY STREET, SUITE 100
NEW YORK, NY 10007

GEORGE F. CARPINELLO

COUNSEL OF RECORD

ADAM R. SHAW
BOIES SCHILLER & FLEXNER LLP
30 SOUTH PEARL STREET
ALBANY, NY 12207
(518) 434-0600
GCARPINELLO@BSFLLP.COM

COUNSEL FOR PETITIONERS

MAY 15, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
REASONS FOR GRANTING THE WRIT ................. 1
I.

THE NINTH CIRCUIT DID NOT FIND THAT THIS
CASE INVOLVED “ONLY” A POTENTIAL AND
IMMATERIAL CONFLICT BETWEEN SETTLING
COUNSEL AND THE CLASS. ................................. 3

II. THE NINTH CIRCUIT’S DECISION CONFLICTS
WITH THIS COURT’S DECISIONS IN AMCHEM
AND ORTIZ. ........................................................ 8
III. THE NINTH CIRCUIT’S DECISION CREATES A
CIRCUIT SPLIT WITH MULTIPLE CIRCUIT
COURTS OVER WHETHER MATERIALLY CONFLICTED COUNSEL CAN EVER REPRESENT A
CLASS. ............................................................. 10
CONCLUSION.......................................................... 12

ii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Amchem Products, Inc. v. Windsor,

521 U.S. 591 (1997) ................................... passim

Charron v. Wiener,

731 F.3d 241 (2013) ........................................... 11

In re “Agent Orange” Products Liability
Litigation, 818 F.2d 216 (2nd Cir. 1987).............. 11
In re Deepwater Horizon,

739 F.3d 790 (5th Cir. 2014) ............................. 10

Ortiz v. Fireboard Corp.,

527 U.S. 815 (1999) ................................... passim

Rodriguez v. West Publishing Co.,

563 F.3d 948 (9th Cir. 2009)................................ 10

JUDICIAL RULES
Fed. R. Civ. P. 23(a)(4) ...................................... passim
Fed. R. Civ. P. 23(e) .................................................... 8
Sup. Ct. R. 16.1 ......................................................... 12

1

REASONS FOR GRANTING THE WRIT
As the White Plaintiffs explained in their Petition,
this Court should grant certiorari in this case for two
reasons.
First, the Ninth Circuit’s decision, under which
materially conflicted counsel can be found to have
“fairly and adequately represent[ed] the interests of
the class” within the meaning of Fed. R. Civ. P. 23(a)(4)
so long as they negotiated a “fair” settlement, conflicts
with the decisions of numerous other circuits, including
the Second, Third, Fourth, Fifth, Seventh and Eleventh
Circuits, all of which hold that that rule bars such
conflicted counsel from representing a class.
Second, the Ninth Circuit’s decision is irreconcilably inconsistent with this Court’s decisions in both
Amchem Products, Inc. v. Windsor, 521 U.S. 591 (1997)
and Ortiz v. Fireboard Corp., 527 U.S. 815 (1999),
both of which hold that the adequacy of representation requirement must be satisfied independent of
any assessment of the fairness of a class settlement.
Specifically, in its decision below, the Ninth Circuit
held that “by opting to repay its debt to the class in
new benefits rather than deducting the costs of renotice from the fee award,” Settling Counsel had “[a]t
the very least . . . created the possibility of a conflict
of interest with the class.” (App.5a (emphasis added)).
The Ninth Circuit nonetheless chose not to reach the
issue of whether the conflict Settling Counsel had
fomented was properly characterized as a “current”
or “material” conflict—or otherwise to assess its
impact on the fitness of Settling Counsel to represent

2
the class. Why? Because, in the Ninth Circuit’s view, it
did not matter. That is, according to the Ninth Circuit,
Rule 23(a)(4) permits a district court to overlook the
existence of any conflict between counsel and the
class—no matter how serious—so long as it finds
that the settlement they negotiated was “fair” and
“provide[d] adequate relief to the class.” (App.5a.)
Respondents’ opposition to the Petition turns
entirely on a mischaracterization of the Ninth Circuit’s
holding in this case. Specifically, Respondents assert
that the Ninth Circuit found that this case involved
“only . . . the possibility of a conflict of interest” between
Settling Counsel and the class (Opp.24)—adding the
emphasis on the word “possibility”—and, correspondingly, that the Ninth Circuit “found no fundamental
conflict” between the interests of Settling Counsel and
those of the class. (Opp.3).
As set forth more fully below, a cursory review of
the Ninth Circuit’s decision reveals that Respondents’
description of its holding is patently disingenuous.
Far from finding “only the possibility of a conflict of
interest,” the Ninth Circuit found that “[a]t the very
least, the structure of the attorneys’ fee award in this
case created the possibility of a conflict of interest
with the class.” (App.5a (emphasis added)). And, far
from then going on to find that there was, in fact, “no
fundamental conflict”, as Respondents represent that
it did (Opp.3), the Ninth Circuit made no finding as
to the fundamentality of the conflict at all. Indeed, it
did not even attempt to characterize the nature of
the conflict.
That is because the Ninth Circuit erroneously
held that Rule 23(a)(4) creates a “flexible standard”
that left it free to rule that Settling Counsel had “ably

3
represented the class” (App.5a) based on its post-hoc
conclusion that “the settlement provide[d] adequate
relief to the class” (App.5a) and irrespective of whether
any fundamental conflict existed between Settling
Counsel’s interests and those of the class.
Once the shroud is lifted over Respondents’
misleading characterization of the Ninth Circuit’s
decision, the rest of their opposition to the Petition
crumbles like a house of cards. That is, Respondents
do not—and, indeed, cannot—dispute that the Ninth
Circuit’s decision cannot be reconciled with Amchem
and Ortiz, wherein this Court held that the issue
whether counsel have a disabling conflict with the
class and are, therefore, unable to meet Rule 23(a)(4)’s
adequacy of representation requirement must be
satisfied independent of and prior to the adequacy of
any class settlement. Nor can Respondents dispute
that the Ninth Circuit’s decision conflicts with those
of multiple other circuit courts which have held that
counsel whose interests are in material (or fundamental) conflict with those of the class cannot fairly
and adequately represent its interests.
I.

THE NINTH CIRCUIT DID NOT FIND THAT THIS CASE
INVOLVED “ONLY” A POTENTIAL AND IMMATERIAL
CONFLICT BETWEEN SETTLING COUNSEL AND THE
CLASS.

In their briefing before the Ninth Circuit, White
Plaintiffs argued that Settling Counsel’s insistence
that they could honor their obligation to pay off their
$6 million notice debt to the class by taking that
amount out of the settlement pot created a material
conflict between their interests and those of the class.
Specifically, White Plaintiffs argued that Settling

4
Counsel’s overriding goal in any negotiation was not
to maximize the class’s recovery, but rather to procure
an additional $6 million in relief so that they could
avoid having to pay that debt out of their own
pockets—even if all or most of that additional relief
took the form of phony non-monetary benefits that
Settling Counsel could pretend was worth the equivalent of $6 million in cash.1

White Plaintiffs further pointed out that through

no coincidence, that is exactly what happened: Settling
Counsel concluded a settlement in which Defendants
agreed to pay $1 million in new money and certain
non-monetary benefits that the district court valued
at $5.5 million, but that, in reality, had zero or near
zero value to the class.2 White Plaintiffs posited that
1 Contrary to Respondents’ assertion (Opp.21-23), White Plaintiffs’ argument that Settling Counsel’s interests conflicted with
those of the class is not rooted in California law. Rather, White
Plaintiffs merely cited two California authorities as support for
the unremarkable proposition that, by virtue of their having
breached their fiduciary duty to the class, Settling Counsel were
obligated to pay the cost of that re-notice. Far from rejecting this
proposition, the Ninth Circuit agreed that Settling Counsel
were so obligated (App.6a) and found that their effort to pay
that debt out of the settlement fund “[a]t the very least . . . created
the possibility of a conflict of interest with the class.” (App.5a.).
Whether the Ninth Circuit’s finding that such counsel can
nonetheless satisfy Rule 23(a)(4)’s adequacy requirement
conflicts with decisions of this Court and multiple circuit courts
is manifestly a question of federal law.
2 White Plaintiffs argued that the district court got to this
valuation by assigning arbitrary values of (1) $2 million to the
Settlement’s provision of an online credit-reporting brochure
based on nothing more than Settling Counsel’s rank speculation
that each of an estimated two million website visits to that
brochure was “worth two lattes at Starbucks”—or about $10 cash,
Supplemental Excerpts of Record (“SER”) 133, (2) $1 million for

5
Settling Counsel did so not because they thought the
class would be better off, but for the obvious reason
that this valuation gave them a $5.5 million credit
against their notice debt (not to mention an additional
$1.1 million in contingency fees).3
Respondents’ characterization of the Ninth Circuit’s decision notwithstanding, it did not reject White
Plaintiffs’ argument that Settling Counsel’s attempt
to pay its notice debt out of the class’s recovery
created a material conflict of interest. To the contrary, the Ninth Circuit found (1) that Settling Counsel
were, indeed, “duty-bound to reimburse the class for
the waste of settlement funds caused by the ethical
conflict in Radcliffe I ” (App.6a), (2) that honoring
that duty required that Settling Counsel “pay the full
the Settlement’s offer of free credit reports/scores, despite that
in a previous decision denying preliminary approval of an
earlier settlement in this matter the district court had accepted
Settling Counsel’s position that this benefit should be attributed
zero cash value, Excerpts of Record (“ER”) 346-47, and (3) $2.5
million for the benefit of obtaining two class notices, despite
Settling Counsel’s admitted obligation to pay the full cost of the
second such notice.
3 As part of their effort to deflect attention from their own
ethical transgressions, Settling Counsel seek to paint the two
original White Counsel (Daniel Wolf and Charles Juntikka) as
greedy, inexperienced and misguided lawyers—variously accusing
them (Opp.1-2, 4-6) of having no interest in injunctive relief,
being fixated on “an unachievable billion-dollar recovery,” and
sabotaging a settlement opportunity that did not meet that
demand to the detriment of the class. White Plaintiffs will not
waste space responding to these ad hominem and wholly irrelevant allegations about their abilities, motives and conduct,
which as set forth in White Counsel’s declarations and the
many exhibits in support thereof (Reply Excerpts of Record
(“RER”) 6-25), are all demonstrably false and misleading.

6
[$6 million] cost of re-notice” out of their own pockets
by deducting that cost from their fee award or,
presumably, paying it upfront (App.6a), and (3) that,
by instead seeking to pay that $6 million debt out of
the settlement fund, Settling Counsel had “[a]t the
very least . . . created the possibility of a conflict of
interest with the class.” (App.5a (emphasis added)).
In other words, contrary to Settling Counsel’s
“reading” of the Ninth Circuit’s decision, the Ninth
Circuit did not find that Settling Counsel had “only”
(Opp.24) or “mere[ly]” (Opp.33) created “the possibility
of a conflict of interest with the class.”
Rather, as is apparent from its use of the vital
prefatory words “at the very least”—words that Settling
Counsel somehow omit on each of the eight occasions
they cite the Ninth Circuit’s “possibility of conflict”
language—the Ninth Circuit found that the conflict
could most charitably be described as a possible
conflict, meaning that it might well be fairly characterized in much harsher terms.
To be sure, the Ninth Circuit did not say whether
the potential conflict Settling Counsel had created
had, in fact, matured into a current conflict or whether
it regarded that conflict as material (or “fundamental”) or not—albeit it is difficult to comprehend how a
conflict that arises when counsel has interests that
are at odds with those of a class in maximizing its
recovery can be described as anything other than
material and fundamental. But again, contrary to
Respondents’ contention, that is not because the
Ninth Circuit had found otherwise.
Rather, the Ninth Circuit did not determine how
concrete or serious the conflict in this case was because,

7
to the Ninth Circuit’s way of thinking, it simply did
not matter. That is because, according to the Ninth
Circuit, the district court’s finding that Settling Counsel
had negotiated a “fair” settlement that “provide[d]
adequate relief to the class,” ipso facto, establishes that
they “ably represented the class” within the meaning
of Rule 23(a)(4). (App.5a). As is apparent from its full
discussion of the issue, the Ninth Circuit’s decision
does not admit of any contrary interpretation:
At the very least, the structure of the attorneys’ fee award in this case created the
possibility of a conflict of interest with the
class. That said, multiple factors counsel
restraint. Most importantly, given that Rule
23’s flexible standard governs this dispute,
we conclude that the settlement is fair and
that Settling Counsel ably represented the
class.
[***]
This long-standing dispute has cost the
parties a great deal already. Further time
spent litigating will serve only to devour more
and more of the settlement fund, which would
be better spent providing relief to injured
parties. . . . We are satisfied that the
settlement provides adequate relief to the
class.
(App.5a).
This Court cannot let stand a holding that the
need to end a “long-standing dispute” that has “cost
the parties a great deal already” can justify refusing
even to make a determination whether a case involves

8
the kind of conflict that will render counsel inadequate
under Rule 23(a)(4).
II.

THE NINTH CIRCUIT’S DECISION CONFLICTS WITH
THIS COURT’S DECISIONS IN AMCHEM AND ORTIZ.

As set forth in White Plaintiffs’ Petition, the Ninth
Circuit’s decision in this case is irreconcilably inconsistent with this Court’s decisions in both Amchem
and Ortiz.
Specifically, in each of those cases, this Court
held that the determination of whether representative
plaintiffs and their counsel satisfy the requirements
of Rule 23(a)(4) must be made prior to and independent
of any assessment of the fairness of a class settlement
under Rule 23(e). Amchem, 521 U.S. at 621; Ortiz,
527 U.S. at 858-59. Consequently, in both Amchem
and Ortiz, this Court concluded that the representative
plaintiffs and their counsel—whose interests conflicted
with those of certain subgroups of the class—could
not fairly and adequately protect the interests of those
subgroups, irrespective of any “determination at postcertification fairness review under subdivision (e) that
the settlement is fair in an overriding sense.” Ortiz,
527 U.S. at 858; see also Amchem, 521 U.S. at 621.
Respondents do not dispute that Amchem and
Ortiz prevent a court from doing exactly what the

Ninth Circuit did here, namely basing its adequacy
of representation determination on its post-hoc finding
that the settlement was “fair” and “provide[d] adequate
relief to the class.” Instead, Respondents argue only
(Opp.2) that Amchem and Ortiz are inapposite because
in each of those cases, this Court found that the
interests of the representative parties were “fundamentally opposed” to those of certain subgroups of

9
the class that they sought to represent, whereas in
this case, the Ninth Circuit found “only the possibility
of a conflict” between the interests of Settling Counsel
and those of the class. As that characterization of the
Ninth Circuit’s decision is patently incorrect for the
reasons set forth in Point I above, Amchem and Ortiz
cannot be distinguished on grounds that the conflict
in those cases was less severe than it is here. Accordingly, this Court’s decision in those cases unquestionably command reversal of the Ninth Circuit’s
decision.
The only other argument that Respondents make
in opposition to White Plaintiffs’ argument that the
Ninth Circuit’s decision cannot be reconciled with
Amchem and Ortiz is that White Plaintiffs “failed to
cite Amchem and Ortiz “in their court of appeals
briefing”. (Opp.22). Respondents’ contention—as well
as its unstated implication that White Plaintiffs did
not properly preserve their Amchem/Ortiz argument—is misleading and incorrect.
The only reason why White Plaintiffs did not
mention Amchem and Ortiz in their merits briefs
before the Ninth Circuit is that Respondents never
argued that the conflict they had created could be overlooked because they had negotiated a settlement that
provided fair and adequate relief to the class. Rather,
Respondents’ defense to White Plaintiffs’ conflict of
interest argument was only that Settling Counsel had
never made an unconditional promise to reimburse
the class for the costs of re-notice and, hence, that there
was no conflict between them and the class.
The contention that the conflict with the class
that Settling Counsel had created could be overlooked
because the settlement was fair and reasonable was

10
made for the first time by the Ninth Circuit, sua sponte,
in its memorandum decision. Accordingly, there was
no occasion for White Plaintiffs to raise their Amchem/
Ortiz argument in their briefing below and that
argument is thus properly presented to this Court.
III. THE NINTH CIRCUIT’S DECISION CREATES A CIRCUIT
SPLIT WITH MULTIPLE CIRCUIT COURTS OVER
WHETHER MATERIALLY CONFLICTED COUNSEL CAN
EVER REPRESENT A CLASS.
As set forth in White Plaintiffs’ Petition, the Ninth
Circuit’s decision stands in stark contrast to the decisions of numerous other circuit courts, all of which hold
that counsel whose interests are in material conflict
with those of a class are incapable of representing
that class under Rule 23(a)(4).
Settling Counsel do not dispute White Plaintiffs’
characterization of the law outside of the Ninth Circuit.
To the contrary, Settling Counsel agree that the rule
in all such circuits is that counsel cannot represent a
class when their interests are fundamentally conflicting (Opp.23, 25-26) and cite both In re Deepwater
Horizon, 739 F.3d 790 (5th Cir. 2014), and Rodriguez
v. West Publishing Co., 563 F.3d 948 (9th Cir. 2009),
for the proposition that “‘[a]n absence of material
conflicts of interest . . . is central to adequacy [of
counsel]’” under Rule 23(a)(4). (Opp.28).4
4 Respondents assert (Opp.22) that the commission of ethical
transgressions do not by themselves bar counsel from satisfying
Rule 23(a)(4)’s adequacy requirement. Be that as it may, that
rule prohibits counsel from representing the class when such
transgressions give rise to material conflicts of interest between
counsel and the class.

11
Settling Counsel argue (Opp.23-26), however, that the
Ninth Circuit’s decision does not represent a departure
from this rule, again because it supposedly found
that the conflict in this case was merely “possible”
and “not fundamental.” And again, the truth is that
the Ninth Circuit did not so hold and, in fact, instead
held that it did not need to determine whether there
exists a material or fundamental conflict between
Settling Counsel and the class because counsel who
have negotiated a settlement that is deemed fair and
adequate to the class have, ipso facto, satisfied the
requirements of Rule 23(a)(4). As such, the Ninth
Circuit’s decision creates a clear split with every other
circuit court that has considered the issue.5

5 Respondents point out that the Petition incorrectly describes
In re “Agent Orange” Products Liability Litigation, 818 F.2d 216
(2nd Cir. 1987), as having vacated the class settlement in that case
when, in fact, it only vacated the fee agreement. We apologize
for this inadvertent error. However, it is noteworthy that, like
so many of its sister circuits, the Second Circuit has, postAmchem/Ortiz, embraced the bedrock principles that adequacy
of representation requires that “no fundamental conflict exist”
between the representative parties and the class and that the
adequacy determination must be made “independently of the
fairness of the settlement.” Charron v. Wiener, 731 F.3d 241,
249 (2013).

12

CONCLUSION
For the aforementioned reasons, this Court should
grant the Petition for a Writ of Certiorari and either
summarily reverse the Ninth Circuit’s decision under
Rule 16.1 or set this case for briefing and oral argument.
Respectfully submitted,
GEORGE F. CARPINELLO

COUNSEL OF RECORD

ADAM R. SHAW
BOIES SCHILLER & FLEXNER LLP
30 SOUTH PEARL STREET
ALBANY, NY 12207
(518) 434-0600
GCARPINELLO@BSFLLP.COM
DANIEL WOLF
LAW OFFICE OF DANIEL WOLF
1220 N STREET, NW, UNIT PH2
WASHINGTON, DC 20005
CHARLES JUNTIKKA
CHARLES JUNTIKKA & ASSOCIATES LLP
30 VESEY STREET, SUITE 100
NEW YORK, NY 10007

COUNSEL FOR PETITIONERS
MAY 15, 2020

